SUPREME COURT OF THE UNITED STATES
Supreme Court Case No..

19-114

Douglas F. Ciolek ^ New
Jersey
V.
(Petitioner) (Respondent)
I DO NOT INTEND TO FILE A RESPONSE to the petifcion for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
B Please enter my appearance as Counsel of Record for all respondents.
Q There are multiple respondents, and I do not repi-esent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

1»[ I am a member of the Bar of the Supreme Court of the United States.
Q I am not presently a member of the ^ar of fchis Court. Should a response be requested, the response
will be filed by a Bar member,
Signature.

7,^

Date; -

(Type or print) Name.

Chief Assistant Prosecutor John K. McNamara, Jr., Esq,
@ Mr. D Ms. D Mrs. D Miss

Firm.

Morris County Prosecutor's Office

Ad^3POBOX90°

city & ^ Morristown, New Jersey _zip 0796°
Phone

973285-6196 , y^ Jmcnamara@co-moms.nj.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RBCIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
ec: Douglas Ciolek, Pro Se

